TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Classifiers Are Eliminating Less Productive
                     Tax Returns From the Audit Stream,
                   but Their Work Needs Closer Monitoring



                                         August 25, 2010

                              Reference Number: 2010-30-096




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      HIGHLIGHTS


CLASSIFERS ARE ELIMINATING LESS                          attention because the IRS is phasing out the
PRODUCTIVE TAX RETURNS FROM THE                          manual classification process and moving to an
AUDIT STREAM, BUT THEIR WORK                             automated process where classifiers will be
NEEDS CLOSER MONITORING                                  widely dispersed across the country. As a
                                                         result, these reviews will be important for
                                                         assuring classifiers are learning and adapting to
Highlights                                               the new automated environment while
                                                         consistently applying their expertise and skills
                                                         during the classification process.
Final Report issued on August 25, 2010
                                                         WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2010-30-096
to the Internal Revenue Service Commissioner             TIGTA recommended that the Director,
for the Small Business/Self-Employed Division.           Examination Planning and Delivery, Small
                                                         Business/Self-Employed Division: 1) issue a
IMPACT ON TAXPAYERS                                      memorandum to managers reemphasizing the
                                                         existing requirements for controlling and
Internal Revenue Service (IRS) statistics show           monitoring the quality of the classification
that fewer audits initiated by updated scoring           process, 2) establish a mechanism to monitor
formulas are being closed with no recommended            how well managers are complying with the
tax changes. This indicates the IRS is better            existing requirements, and 3) develop and
focusing its audit resources on tax returns              implement a data collection instrument to ensure
posing the greatest compliance risk and not              an adequate sample of tax returns is reviewed.
burdening compliant taxpayers with an audit.
                                                         IRS management agreed with the
WHY TIGTA DID THE AUDIT                                  recommendations and plans to take appropriate
The audit was initiated because the IRS is               corrective actions. The Director, Examination
investing considerable effort to obtain current          Planning and Delivery, Small Business/
compliance data needed to update the                     Self-Employed Division, plans to issue a
Discriminant Index Function (DIF) formulas.              memorandum to Examination Area Directors on
Assigning a DIF score is the first part of a             the topic of sample return reviews to be done
multistep process designed to select tax returns         during the classification process. Also, the
for which an audit is most likely to result in a         Director, Examination Planning and Delivery,
material tax change. After the DIF assigns a             Small Business/Self-Employed Division, plans to
score, the returns with the highest scores are           recommend that Examination Area Directors
reviewed by classifiers.                                 include a review of the quality of the
                                                         classification process in their respective
Classifiers have a critically important role in the      Examination Area Operational Reviews. To
process because they use their experience and            ensure an adequate sample of
judgment to determine which DIF-initiated tax            classified/selected returns is reviewed, IRS
returns warrant an audit and which can be                management plans to develop a data collection
accepted as filed. The objective of this audit           instrument to be used for collecting this
was to determine how well classifiers in the             information.
Small Business/Self-Employed Division are
assessing the compliance risk on individual tax
returns selected by the updated DIF formulas.
WHAT TIGTA FOUND
Classifiers are doing a good job of eliminating
less productive tax returns from the DIF audit
stream. However, reviews to monitor the quality
of their work were not always conducted in
accordance with IRS procedures. This warrants
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 25, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Classifiers Are Eliminating Less Productive Tax
                             Returns From the Audit Stream, but Their Work Needs Closer
                             Monitoring (Audit # 201030025)

 This report presents the results of our review to determine how well classifiers in the
 Small Business/Self-Employed Division are assessing the compliance risk on individual tax
 returns selected by the updated Discriminant Index Function formulas. This audit was conducted
 as part of our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                        Classifiers Are Eliminating Less Productive Tax Returns
                     From the Audit Stream, but Their Work Needs Closer Monitoring




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Classifiers Eliminated Less Productive Tax Returns From the
          Audit Stream .................................................................................................Page 3
          Reviews to Control and Monitor the Classification Process
          Need to Be Conducted in Accordance With Procedural Requirements .......Page 6
                    Recommendations 1 through 3:...........................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Classification Quality Review Record (Form 5126) ...........Page 14
          Appendix V – Examination Classification Checksheet (Form 6754)...........Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
           Classifiers Are Eliminating Less Productive Tax Returns
        From the Audit Stream, but Their Work Needs Closer Monitoring




                        Abbreviations

CDE               Compliance Data Environment
DIF               Discriminant Index Function
FY                Fiscal Year
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
PSP               Planning and Special Programs
PY                Processing Year
SB/SE             Small Business/Self-Employed
                       Classifiers Are Eliminating Less Productive Tax Returns
                    From the Audit Stream, but Their Work Needs Closer Monitoring




                                              Background

The Internal Revenue Service (IRS) is investing
considerable effort in obtaining current compliance data           Assigning a DIF score is the
needed to measure voluntary compliance and update the           first part of a multistep process
Discriminant Index Function (DIF) formulas that are               designed to select returns for
                                                                which an audit is most likely to
used to score individual tax returns according to their
                                                                 result in a material tax change.
audit potential. Assigning a DIF score is the first part of
a multistep process designed to select returns for which
an audit is most likely to result in a material tax change. After the DIF assigns a score, the
returns with the highest scores are reviewed by classifiers.
These classifiers, who are experienced examiners on a temporary assignment, have a critically
important role in the process because they use their experience and judgment to determine which
DIF-initiated returns will be selected for audit consideration (selected) and which can be
accepted as filed (accepted). If a return is accepted by the classifier, it is eliminated from the
DIF audit stream and returned to IRS storage files.
However, if the decision is made to select a return, the classifier makes a judgment call as to
whether the audit should be done in the field or in an IRS office. In general, field audits involve
more complex issues related to business individuals. When the decision is made that the return
should be audited in an IRS office, the classifier will additionally identify the issues to be
covered during the audit by completing an Examination Classification Checksheet (Form 6754). 1
After returns are selected, they are forwarded to audit groups for final review. During this final
review, a decision is made to either initiate an audit or accept the return as filed, eliminate it from
the DIF audit stream, and return it to IRS storage files. If an audit is initiated, the audit process
typically involves the IRS notifying the taxpayer of the audit and its scope, evaluating the
taxpayer’s supporting information, and advising the taxpayer (or his or her representative) of the
audit findings.
This review was performed in the IRS Small Business/Self-Employed (SB/SE) Division
Headquarters Office in New Carrollton, Maryland; the Compliance Data Environment (CDE)
Development Center in Brooklyn Center, Minnesota; and the Planning and Special Programs
(PSP) offices in Laguna Niguel, California; Denver, Colorado; Boston, Massachusetts;
Philadelphia, Pennsylvania; and Memphis, Tennessee, during the period December 2009 through
February 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to


1
    See Appendix V for a copy of Form 6754.
                                                                                               Page 1
                  Classifiers Are Eliminating Less Productive Tax Returns
               From the Audit Stream, but Their Work Needs Closer Monitoring



obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                        Classifiers Are Eliminating Less Productive Tax Returns
                     From the Audit Stream, but Their Work Needs Closer Monitoring




                                         Results of Review

Classifiers are doing a good job of eliminating less productive returns from the DIF audit stream.
However, reviews to monitor the quality of their work were not always conducted in accordance
with IRS procedures. This situation warrants attention because the IRS is phasing out the
manual classification process and moving to an automated process where classifiers will be
widely dispersed across the country. As a result, these reviews will be important for assuring
classifiers are learning and adapting to the new automated environment while consistently
applying their expertise and skills during the classification process.

Classifiers Eliminated Less Productive Tax Returns From the Audit
Stream
One measure of audit productivity that continues to trend favorably since the updated DIF
formulas were introduced is the additional taxes recommended for each tax return audited. Since
the updated formulas were introduced in Processing Year (PY) 2 2006, the recommended
additional taxes for DIF-initiated audits increased 72 percent from a low of $4,753 in PY 2003 to
$8,193 in PY 2006. As reflected in Figure 1, SB/SE Division statistics additionally show the
percentage of no-change audits initiated under the new formulas is declining. The reduction in
the percentage of no-change audits is noteworthy because it indicates that the IRS is better
focusing its audit resources on returns posing the greatest compliance risk and not burdening as
many compliant taxpayers with an audit.




2
    The year in which tax returns and other tax data are processed.
                                                                                           Page 3
                                   Classifiers Are Eliminating Less Productive Tax Returns
                                From the Audit Stream, but Their Work Needs Closer Monitoring



                                Figure 1: SB/SE Division’s Percentage of DIF-Initiated
                                    No-Change Audits for PYs 2001 through 2007

                          20%
                                      18%                              15%                 13%
       No-Change Audits




                          15%                  13%
        Percentage of




                                                                                    14%                  11%
                          10%
                                                         12%
                          5%

                          0%
                                   2001     2002      2003          2004         2005     2006        2007
                                                               Processing Year


Source: Our analysis of closed audit data from the IRS Audit Information Management System. 3

One factor likely contributing to the favorable productivity trends is the ability of classifiers to
eliminate less productive returns from the audit stream. From a universe of 49,646 tax returns
for sole proprietors and individuals, we analyzed a statistical random sample of 148 tax returns
that were identified by the updated DIF formulas and subsequently accepted by classifiers during
Fiscal Years (FY) 2008 and 2009. Our analysis showed that classifiers did a good job of
eliminating less productive returns from the audit stream.
In evaluating the 148 tax returns, we followed a 3-step process. First, we reviewed the tax return
and its individual line items to identify large, unusual, or questionable items. Second, we used
the IRS’ preliminary cash transaction analysis in comparing the taxpayer’s expenditures to the
income reported on the return. The preliminary cash transaction analysis is designed to identify
differences between expenditures and income, which indicate expenses may be overstated on the
return and/or there may be additional sources of income that should have been reported. Third,
we made a judgment about whether the tax returns should have been selected or accepted by
comparing the estimated additional taxes that may have resulted if the returns were audited to the
average additional taxes recommended for audits closed by the SB/SE Division in FYs 2008 and
2009.
Figure 2 shows that the SB/SE Division closed 219,555 audits of various types of individual
returns in FYs 2008 and 2009 and recommended an average of $11,337 in additional taxes on a
tax return basis. We concluded classifiers made the correct decision to accept 146 (99 percent)
of the 148 tax returns analyzed because 1) we did not identify any large, unusual, or questionable



3
  The Audit Information Management System is a computer system used by the IRS to control returns, input
assessments/adjustments to the Master File, and provide management reports. The Master File is the IRS database
that stores various types of taxpayer account information. This database includes individual, business, and
employee plans and exempt organizations data.
                                                                                                         Page 4
                      Classifiers Are Eliminating Less Productive Tax Returns
                   From the Audit Stream, but Their Work Needs Closer Monitoring



items and/or 2) the additional taxes that may have resulted if the tax returns were audited would
not likely have exceeded the average yield of examined returns closed in FYs 2008 and 2009.
            Figure 2: SB/SE Division’s Additional Recommended Taxes for
       Closed Audits Initiated by the Updated DIF Formulas in FYs 2008 and 2009 4

                                                                                              Recommended
                                                                                             Additional Taxes 5
                                                                           Tax             Total         Average
                                                                          Returns         Dollars       Dollars Per
                       Types of Tax Returns                              Examined        (millions)     Tax Return
    Nonbusiness – Total Positive Income 6 Less Than $200,000                 38,153            $232           $6,083
    Sole Proprietor – Total Positive Income Less Than $200,000              146,068          $1,419           $9,715

     Subtotal – Total Positive Income Less Than $200,000                    184,221          $1,651           $8,962
    Nonbusiness – Total Positive Income Between $200,000
    and $999,999                                                               7,481           $118          $15,771
    Sole Proprietor – Total Positive Income Between $200,000
    and $999,999                                                             19,286            $385          $19,948
    Nonbusiness and Sole Proprietor – Total Positive Income of
    $1 Million or Greater                                                      8,567           $335          $39,144
     Subtotal – Total Positive Income of $200,000 or Greater                 35,334            $838          $23,718
                           Grand Total                                      219,555          $2,489          $11,337
Source: SB/SE analysis of closed audits from the IRS Audit Information Management System for the
SB/SE Division.

In the near future, the IRS anticipates phasing out its manual classification process and moving
to an automated process under its CDE project. The CDE project is a part of the IRS’ Business
Systems Modernization Program, which intends to modernize outdated information systems and
reduce labor- and paper-intensive work processes.
Although we did not review the CDE project in-depth, we did visit the project office where IRS
officials demonstrated how the automated classification process is expected to function. They
also provided us an overview of its expected benefits. One of the key benefits, according to


4
  Totals do not include examinations conducted during training.
5
  Total dollars and average dollars per tax return are rounded for presentation purposes. As a result, calculations
using the numbers will not generate a precise answer.
6
  In general, total positive income is calculated by adding the positive values from income items, such as wages,
interest, and dividends reported on tax returns and counting losses as zero.
                                                                                                               Page 5
                     Classifiers Are Eliminating Less Productive Tax Returns
                  From the Audit Stream, but Their Work Needs Closer Monitoring



officials, is that the CDE will provide classifiers with the ability to classify returns online from
their individual workstations, which should produce savings since classifiers will no longer need
to incur the time and costs of traveling to the IRS campuses 7 to classify returns. In addition,
campus personnel will no longer need to spend time retrieving and assembling paper returns and
related return information for the classification process or returning paper documents to IRS
storage files once the classification process is completed.
As the classification process becomes automated with classifiers widely dispersed across the
country, it will be important to assure classifiers are learning and adapting to the new processes
while consistently applying their expertise and skills during the classification process. Although
the IRS already requires managers to review samples of returns selected and accepted by
classifiers, we found the reviews were not always conducted in accordance with established
procedures.

Reviews to Control and Monitor the Classification Process Need to Be
Conducted in Accordance With Procedural Requirements
Since the updated DIF formulas were introduced, SB/SE Division statistics show that a
substantial number of returns the DIF is identifying for audit are subsequently accepted as filed
by classifiers. A large percentage (43 percent) 8 of the returns that were accepted by classifiers
involved returns reporting sole proprietor activities. In addition, approximately 49 percent 9 of
the returns reported income of $200,000 or more, which is a segment of the return population
(high-income individuals) the IRS believes needs more audit coverage (see Figure 3).




7
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
8
  Percentage does not include sole proprietors with total positive income of $1 million or more.
9
  Percentage includes both high income nonbusiness and sole proprietors.
                                                                                                          Page 6
                        Classifiers Are Eliminating Less Productive Tax Returns
                     From the Audit Stream, but Their Work Needs Closer Monitoring



            Figure 3: Individual Returns Selected by the Updated DIF Formulas
           and Subsequently Accepted As Filed by Classifiers in FYs 2007–2009 10

                                                                                      Number of Tax
                                                                                    Returns Accepted as
                                  Types of Tax Returns                              Filed by Classifiers
 Nonbusiness – Total Positive Income Less Than $200,000.                                   27,384
 Sole Proprietor – Total Positive Income Less Than $200,000                                44,643
      Subtotal – Total Positive Income Less Than $200,000                                  72,027
 Nonbusiness – Total Positive Income Between $200,000 and $999,999                         29,054
 Sole Proprietor – Total Positive Income Between $200,000 and $999,999                     15,649
 Nonbusiness and Sole Proprietor – Total Positive Income of $1 Million or
 Greater                                                                                   24,993
      Subtotal – Total Positive Income of $200,000 or Greater                              69,696

                                       Grand Total                                         141,723
Source: SB/SE analysis of closed nonexamined tax return data from the IRS Audit Information Management System
for the SB/SE Division.

The primary technique used by the SB/SE Division to control and monitor the quality of the
classification process is the review of returns by Territory managers in its Office of PSP. Among
other things, the Internal Revenue Manual (IRM) recommends PSP Territory managers, or their
designees, review a representative sample of returns selected and accepted as filed by each
classifier. To supplement the IRM guidance, in Calendar Year 2007, the SB/SE Division
developed and implemented a nationwide Classification Handbook that provides detailed
instructions and explanations of the administrative and business procedures that are required to
be followed during the classification process. The IRM and the Handbook also outline
expectations and responsibilities for both classifiers and managers.
Included among the manager expectations and responsibilities is a requirement to document the
results from reviewing a minimum of 10 percent of the returns classified by each classifier on the
Classification Quality Review Record (Form 5126). 11 The purpose for the reviews is to provide
assurances that:
       •   Returns are selected or accepted in accordance with established guidelines.
       •   Classification checksheets are properly completed.


10
     Totals do not include examinations conducted during training.
11
     See Appendix IV for a copy of Form 5126.
                                                                                                      Page 7
                      Classifiers Are Eliminating Less Productive Tax Returns
                   From the Audit Stream, but Their Work Needs Closer Monitoring



      •   The potential tax change is sufficient to warrant selection, especially on returns with a
          negative taxable income.
      •   Classifiers are maintaining a high level of technical proficiency, exercising good
          judgment in accepting and selecting returns, and utilizing their time effectively.
For FYs 2008 and 2009, the documentation maintained by the SB/SE Division for reviewing
samples of returns classifiers selected and accepted was not always readily available. When the
documentation was available, it lacked the information needed to control the quality of the
classification process. Specifically, we conducted work at five of the seven PSP offices and
found the following:
      •   No documentation that reviews were conducted in 1 of the 5 PSP offices where
          approximately 36,370 DIF returns and 41,030 DIF returns were classified in FY 2008 and
          FY 2009, respectively.
      •   Key information was missing from the Forms 5126 in four PSP offices that had
          documentation available. The missing information included items specifically designed
          to address the technical abilities of classifiers, such as the ability to identify potential
          unreported income and utilization of time.
      •   None of the 4 PSP offices that had documentation available met the requirement for
          reviewing 10 percent of the tax returns classified in FYs 2008 and 2009. Overall, we
          estimate that 196,772 returns were classified by these offices in FYs 2008 and 2009.
In a separate but related issue, the Form 5126 could be enhanced to capture the total number of
returns selected and accepted by each classifier. Both items are critical for controlling and
monitoring the quality of the classification process because they are needed to calculate the
minimum number of classified returns that need to be reviewed and to assure that the requisite
number of classified returns was, in fact, reviewed.
The Government Accountability Office Standards for Internal Control in the Federal
Government 12 require that agencies establish controls to 1) enforce adherence to management
policies and procedural requirements, 2) maintain records showing that controls are properly
followed, and 3) assure that performance is assessed on an ongoing basis. If managers are not
conducting reviews and not adequately documenting review results, the IRS cannot be assured
that the controls over the classification process are being carried out effectively. This, in turn,
increases the risk that the IRS may miss opportunities to make the most efficient use of audit
resources and further reduce burden of audits on compliant taxpayers.




12
     (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                Page 8
                   Classifiers Are Eliminating Less Productive Tax Returns
                From the Audit Stream, but Their Work Needs Closer Monitoring



Recommendations
We recommended that the Director, Examination Planning and Delivery, SB/SE Division:
Recommendation 1: Issue a memorandum to PSP Territory managers that reemphasizes
1) the need to control and monitor the quality of the classification process by reviewing
representative samples of returns selected and accepted by classifiers and 2) how the results of
the reviews should be documented.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Planning and Delivery, SB/SE Division, will issue a memorandum
       to the Examination Area Directors on the topic of sample return reviews to be done
       during the classification process. The memorandum will stress the importance of
       monitoring quality by reviewing representative samples of returns selected and accepted
       during classification, and explain how these reviews should be documented.
Recommendation 2: Establish a mechanism to monitor how well PSP Territory managers, or
their designees, are complying with the existing requirements to control and monitor the quality
of the classification process.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Planning and Delivery, SB/SE Division, will recommend that the
       Examination Area Directors include a review of the quality of the classification process
       in their respective Examination Area Operational Reviews.
Recommendation 3: Develop and implement a data collection instrument to help ensure an
adequate sample of tax returns is reviewed.
       Management’s Response: IRS management agreed with this recommendation. To
       ensure that an adequate sample of classified/selected returns is reviewed, the Director,
       Examination Planning and Delivery, SB/SE Division, will develop a data collection
       instrument to be used for collecting this information.




                                                                                            Page 9
                     Classifiers Are Eliminating Less Productive Tax Returns
                  From the Audit Stream, but Their Work Needs Closer Monitoring



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine how well classifiers in the SB/SE Division
are assessing the compliance risk on individual tax returns selected by the updated DIF formulas.
To accomplish our objective, we:
I.      Determined the controls and procedures the IRS has in place to ensure quality selection
        and classification of DIF returns.
        A. Reviewed the IRM, the National Office Examination Classification Guidelines, and
           local area classification instructions.
        B. Discussed with the Staff Assistant to the Director, Examination Planning and
           Delivery, SB/SE Division, the controls and procedures in place to ensure
           classification is consistent nationwide and that returns with issues that are material in
           scope are selected for audit.
        C. Reviewed FYs 2008 and 2009 documentation for classification details and
           management reviews for the PSP offices located in Laguna Niguel, California;
           Denver, Colorado; Boston, Massachusetts; Philadelphia, Pennsylvania; and
           Memphis, Tennessee.
        D. Conducted a site visit to the CDE Development Center located in
           Brooklyn Center, Minnesota, to perform a walk through of controls and processes in
           place for classifying returns.
II.     Assessed how well classifiers evaluated the compliance risk posed for individual tax
        returns selected by the DIF formulas and subsequently accepted.
        A. Selected a statistical sample of 148 individual tax returns for review from the
           49,646 returns that were listed on the Audit Information Management System 1 as
           nonexamined closures (accepted as filed by classification) for FYs 2008 and 2009.
           The sample had a confidence level of 95 percent, a precision rate of ± 8 percent, and
           an expected error rate of 50 percent.




1
  The Audit Information Management System is a computer system used by the IRS to control returns, input
assessments/adjustments to the Master File, and provide management reports. The Master File is the IRS database
that stores various types of taxpayer account information. This database includes individual, business, and
employee plans and exempt organizations data.
                                                                                                        Page 10
                   Classifiers Are Eliminating Less Productive Tax Returns
                From the Audit Stream, but Their Work Needs Closer Monitoring



       B. Tested the reasonableness of computer-processed data by matching a judgmental
          sample of 20 individual tax returns against the IRS Master File.
       C. Reviewed the sample of 148 individual tax returns to identify large, unusual, or
          questionable items that may have been missed by classifiers.
       D. Used a preliminary cash transaction analysis during the review of the 148 individual
          tax returns to identify potential overstated expenses and/or additional income sources
          that may not have been considered by the classifiers.
       E. Made a judgment about whether the 148 individual tax returns reviewed should have
          been selected or accepted by comparing the estimated additional taxes that may have
          resulted if the returns were audited to the average additional taxes recommended in
          audits closed by the SB/SE Division in FYs 2008 and 2009.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
classifying and selecting tax returns for audit and the quality review system in place to evaluate
the accuracy of the classification process. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing a sample of nonexamined closed cases and
results from quality review records.




                                                                                           Page 11
                  Classifiers Are Eliminating Less Productive Tax Returns
               From the Audit Stream, but Their Work Needs Closer Monitoring



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Carole Connolly, Lead Auditor
Cynthia Dozier, Senior Auditor
Aaron Foote, Senior Auditor
Jean Kao, Senior Auditor
Bernard Kelly, Senior Auditor
Debra Mason, Senior Auditor
William Tran, Senior Auditor




                                                                                      Page 12
                  Classifiers Are Eliminating Less Productive Tax Returns
               From the Audit Stream, but Their Work Needs Closer Monitoring



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Examination Planning and Delivery, Small Business/Self-Employed Division
SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 13
              Classifiers Are Eliminating Less Productive Tax Returns
           From the Audit Stream, but Their Work Needs Closer Monitoring



                                                            Appendix IV

Classification Quality Review Record (Form 5126)




Source: The IRM.



                                                                   Page 14
                Classifiers Are Eliminating Less Productive Tax Returns
             From the Audit Stream, but Their Work Needs Closer Monitoring



                                                              Appendix V

Examination Classification Checksheet (Form 6754)




Source: The IRM.


                                                                     Page 15
      Classifiers Are Eliminating Less Productive Tax Returns
   From the Audit Stream, but Their Work Needs Closer Monitoring



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 16
   Classifiers Are Eliminating Less Productive Tax Returns
From the Audit Stream, but Their Work Needs Closer Monitoring




                                                        Page 17
   Classifiers Are Eliminating Less Productive Tax Returns
From the Audit Stream, but Their Work Needs Closer Monitoring




                                                        Page 18
